<html>
<title> - OVERSIGHT OF THE U.S. FISH AND WILDLIFE SERVICE</title>
<body><pre>[Senate Hearing 116-345]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-345

                              OVERSIGHT OF
                   THE U.S. FISH AND WILDLIFE SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                            FEBRUARY 5, 2020
                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
42-433 PDF                WASHINGTON : 2020  





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 5, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                                WITNESS

Wallace, Hon. Robert, Assistant Secretary for Fish, Wildlife, and 
  Parks, Department of the Interior..............................     6
    Prepared statement...........................................     8
    Response to an additional question from Senator Barrasso.....    15
    Responses to additional questions from:
        Senator Carper...........................................    16
        Senator Booker...........................................    24
        Senator Cramer...........................................    29
        Senator Duckworth........................................    36
        Senator Markey...........................................    37
        Senator Merkley..........................................    39
        Senator Rounds...........................................    43
        Senator Sullivan.........................................    44
        Senator Wicker...........................................    47

                          ADDITIONAL MATERIAL

``Hunting is `slowly dying off,' and that has created a crisis 
  for the nation's many endangered species,'' by Frances Stead 
  Sellers. Washington Post, February 2, 2020.....................   167

 
                              OVERSIGHT OF
                   THE U.S. FISH AND WILDLIFE SERVICE

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:06 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Cramer, Braun, 
Rounds, Sullivan, Ernst, Cardin, Whitehouse, Merkley, 
Gillibrand, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    I will point out that last night, President Trump called on 
Congress to pass America's Transportation Infrastructure Act. 
He said we must also rebuild America's infrastructure.
    He then asked Congress to pass America's Transportation 
Infrastructure Act, as he said, ``to invest in new roads, 
bridges, and tunnels across our land.''
    The Senate is ready to answer the President's call. This 
bipartisan legislation passed our Committee unanimously by a 
vote of 21 to nothing.
    America's Transportation Infrastructure Act is the most 
substantial highway infrastructure legislation in history. It 
will fix our roads; it will help speed up project delivery; it 
will help protect the environment; it will help grow America's 
economy.
    I specifically want to thank Ranking Member Carper, and 
Subcommittee Chair and Ranking Member Capito and Cardin for 
their participation and leadership on this legislation, and all 
the sponsors of the bill for their hard work, and Senator 
Inhofe, for your leadership on this area over the years. I look 
forward to sending it to President Trump's desk for his 
signature.
    This morning, we are here to conduct oversight over the 
U.S. Fish and Wildlife Service. I welcome our witness, Rob 
Wallace, who was confirmed in June of last year to be Assistant 
Secretary for Fish, Wildlife, and Parks at the U.S. Department 
of Interior.
    I have known Assistant Secretary Wallace for 35 years, as 
he has served in several wildlife conservation leadership 
roles, both in Wyoming and here in Washington.
    Now, Assistant Secretary Wallace oversees the U.S. Fish and 
Wildlife Service, which is under the jurisdiction of this 
Committee, and the National Park Service, which is under the 
jurisdiction of the Energy and Natural Resources Committee.
    I look forward to hearing from Mr. Wallace about his 
priorities for the U.S. Fish and Wildlife Service.
    I am especially interested to learn more about what the 
Service is doing to strike the proper balance between wildlife 
conservation, habitat management, and the use of our public 
lands. The U.S. Fish and Wildlife Service enforces our Nation's 
wildlife laws. It protects endangered species. It restores and 
conserves wildlife habitat. It administers our National 
Wildlife Refuge System. It manages migratory birds and restores 
fisheries.
    Over the last 3 years, the Trump administration has worked 
to implement policies that benefit our Nation's wildlife and 
remove unnecessary barriers to growing our economy. For 
example, the Administration recognizes what westerners have 
known for years: That the Endangered Species Act needs to work 
better for species and for rural communities.
    The Administration finalized three rules last year to 
improve implementation of the Endangered Species Act. These 
rules revised existing regulations to help clarify and improve 
standards for making listing and delisting decisions, as well 
as critical habitat designations.
    The Trump administration also recognizes the important role 
that sportsmen and women play in wildlife management and 
conservation. Last August, Secretary Bernhardt announced that 
the Department of Interior would open more than 1.4 million 
acres of lands and waters in our National Wildlife Refuge 
System to new opportunities for hunting and fishing.
    The President also signed into law two provisions passed by 
this Committee that improve the ability of States to use the 
Pittman-Robertson Act funds to promote hunting.
    This Committee continues to move other significant 
bipartisan legislation that will help the U.S. Fish and 
Wildlife Service fulfill its important mission.
    In December, the Committee reported America's Conservation 
Enhancement Act, or the ACE Act. We did it by voice vote.
    Among other provisions, the legislation reauthorizes 
important environmental programs, including the North American 
Wetlands Conservation Act, the National Fish and Wildlife 
Foundation Act, and the Chesapeake Bay Program. The ACE Act 
also solidifies partnerships among public agencies and other 
interested parties that promote fish conservation.
    The ACE Act addresses the terrible, degenerative, highly 
contagious brain disease known as chronic wasting disease. 
Detected nearly 40 years ago, chronic wasting disease has 
spread to 26 States and 4 Canadian Provinces. The ACE Act 
establishes a Chronic Wasting Disease Task Force at the U.S. 
Fish and Wildlife Service to address this important wildlife 
threat.
    The ACE Act passed the Senate in January, and I encourage 
the House to pass it without amendment as soon as possible. We 
need to get this legislation to the President's desk so the 
Fish and Wildlife Service can have the tools they need to 
fulfill their mission.
    I look forward to hearing more about what the U.S. Fish and 
Wildlife Service is doing to both protect wildlife and to 
support economic growth. As I have said at other hearings, we 
can and we must do both.
    I would now like to turn to my friend and Ranking Member, 
Senator Carper for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Chairman Barrasso, thank you very much; 
thank you for your kind words.
    I am going to start today by quoting one of our finest 
American leaders. I want to quote one of our great American 
leaders, who once said these words. He said, ``Along the way, I 
have learned so much, especially that no one ever really wins 
by winning everything, and that bipartisan solutions are always 
lasting solutions.''
    Some of you in the room probably don't remember who said 
those words, but it was our witness today, Rob Wallace.
    We welcome you back, and thank you for those words. I 
literally sat last night during the State of the Union Address 
thinking about those words. No one ever really wins by winning 
everything, and that bipartisan solutions are always lasting 
solutions.
    If we are going to be successful, as the Chairman has said, 
we are going to be successfully moving surface transportation 
legislation that actually begins to address our roads, 
highways, bridges, and waterworks that needs to be done. And 
this extreme climate weather that we are facing the challenges 
there. We are going to be able to do that. We have to do it 
together. None of us can do it by ourselves, and I welcome the 
Chairman's words as he opened his statement.
    Let me just say, I know we can agree on a lot on this 
Committee, but I think we can all agree on the importance of 
promoting urban national wildlife refuges, like two we have in 
Delaware, Prime Hook and Bombay Hook National Wildlife Refuge. 
They are treasures to our State, and not just for our State, 
they are treasures for our country.
    People who come and visit our country and our State from 
around the world to visit those wildlife refuges would be very 
much in agreement with that. We are proud that people travel 
from far and near, from throughout the world to visit us for a 
variety of reasons, but especially those refuges.
    As the U.S. Fish and Wildlife Service works to enhance 
access to these special places, I hope we can work together to 
ensure adequate law enforcement at our refuges and all refuges.
    I also want to thank you, Mr. Secretary, for your 
assistance on issues of importance for the First State National 
Historical Park, which serves as one of the newest national 
parks in America. It tells a story of early colonial settlement 
of America leading up to the ratification of our Constitution, 
which we talked about a lot the last few weeks.
    Collaborative species conservation is another bipartisan 
priority. I think we can all agree that it is better to 
conserve species, such as the monarch butterfly, before these 
species require Endangered Species Act protection. We look 
forward to hearing Mr. Wallace's thoughts on these issues of 
bipartisan subjects.
    I must, however, also express my continued concerns with 
actions the Trump administration is taking that I believe will 
harm fish and wildlife.
    The mission of the U.S. Fish and Wildlife Service is to 
work with others to conserve, protect, and enhance fish, 
wildlife, plants, and their habitats for the benefit of the 
American people.
    Unfortunately, too often, this Administration has proposed, 
and in some cases, already finalized regulations that are not 
in the spirit of that mission. Specifically, I fail to see how 
Endangered Species Act regulations finalized last year will 
better ``conserve, protect, and enhance fish, wildlife, plants, 
and their habitats.''
    Just last week, the Administration released its proposed 
Migratory Bird Treaty Act rule. This proposal, which has been 
met with strong, bipartisan opposition, breaks with every 
precedent of law and caters solely to industry, not to the 
American people, as the U.S. Fish and Wildlife Service mission 
states it should.
    Recent reports suggest that the Department of the Interior 
is preparing nearly 100 additional policy changes for 2020. To 
be clear, I do not know what all of these policy changes could 
be, but given this Administration's track record, I fear we 
have reason to expect that these policy changes will be met 
with some disagreement from Democrats on this Committee and in 
Congress, along with conservation groups and other 
stakeholders.
    As we look ahead, Mr. Secretary, I hope you can assure our 
Committee today, and in the days ahead, that any upcoming 
policy changes will be more thoughtful, careful, and inclusive 
of all perspectives than some of the previous changes I have 
mentioned. We have to remember that our national resources are 
precious, and in many cases once they are gone, they are gone.
    If there are indeed scores of policy changes on the 
horizon, I urge the Administration to work with States and all 
stakeholders on those policies because conservation policies 
work best when we work together, and as you once said, Mr. 
Secretary, bipartisan solutions are indeed lasting solutions.
    Thank you, Mr. Chairman, and welcome back, Rob.
    Senator Barrasso. Well, thank you, Senator Carper, for 
quoting our witness here today. Those are wonderful words that 
I am glad are once again in the record, because they are words 
that we can all benefit from. So thank for bringing that to our 
attention.
    Senator Carper. Mr. Chairman, can I mention one other 
thing?
    I have my wallet here, and I put it out for a reason. Last 
night when the President was talking about transportation 
infrastructure, one of the things he did not mention is that 
you have to pay for this stuff. I have always believed, I think 
former Governor Rounds and my other colleagues believe, if 
things are worth having, they are worth paying for.
    We heard nothing last night about how we are going to pay 
for stuff, and we are looking at a budget deficit this year of 
a trillion dollars. A trillion dollars.
    I used to, when I first came to the Congress in 1982 as a 
freshman Congressman and joined Jim Inhofe, our budget deficit 
was about, I don't know, $50 billion, $60 billion, $70 billion. 
We thought that was way too much.
    We are looking at a trillion dollars this year, and the 
idea of passing a transportation infrastructure bill without 
any funding would be, I think, just an aberration. That would 
be just awful.
    I know this is something that you share, views that you 
share, and it is important that we not just say we want to 
improve the infrastructure, we have to do a lot more on roads, 
highways, bridges, but we also have to figure out where the 
money is going to come from. Thank you.
    Senator Barrasso. Well, now, I appreciate that as well, 
Senator Carper, because I agree. I think that is something that 
we all need to work together on with the Finance Committee. We 
are in the process of doing that.
    This bill needs to be paid for. I believe we should start 
by agreeing that everyone who uses the roads should help pay to 
maintain and improve them.
    There isn't a single answer, but among other solutions, I 
believe that the electric vehicle, which currently pays no 
Federal gas tax, actually needs to make a contribution and pay 
into the system as well.
    Senator Inhofe, do you have a question?
    Senator Inhofe. Yes. Let me just make a comment about that, 
because I chaired the Committee during the last three of these 
types of bills.
    It is so popular; that is one of the few taxes that 
everyone agrees on. But it is not just taxes. There are other 
ways of doing it, and we have studied and we have been able 
each time we passed a bill, whether it is any of the last three 
bills, to come up with the funding of it because it becomes 
necessary and that prioritizes it.
    This is going to happen again, so I am glad he said what he 
said, and made a commitment to do something that I think a lot 
of people, most Oklahomans, are enthusiastic about.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Carper.
    Senator Carper. In my conversations with the President on 
infrastructure, Senator Inhofe has been there for a number of 
those, the President has actually been very bold in private in 
suggesting ways to pay for this. I think that some around him 
are concerned that if he is bold in making proposals, that he 
will turn around and look for Democrats and Republicans to 
support him and not find anybody, if he is bold, and strong, 
and honest about the need for funding, including what you just 
mentioned.
    Folks who use roads, highways, and bridges ought to pay for 
them, including folks that are in electric vehicles or hydrogen 
powered vehicles and all that.
    I realize it is not the jurisdiction of this Committee. 
Some of us on this Committee do serve on Finance, and we have 
our work cut out, and we need to lean on the Finance Committee 
to do their job. Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    As we get ready to hear from our witness, Rob Wallace, 
remember he was unanimously confirmed July 2019. He is a 
Wyoming native. His distinguished career includes 45 years of 
service in a variety of positions directly related to 
supervising the U.S. Fish and Wildlife.
    He began his career as a seasonal park ranger in the Grand 
Teton National Park. Since then, he has served as Assistant 
Director of the National Parks Service, Chief of Staff for 
Wyoming's Senator Malcolm Wallop, Staff Director for the U.S. 
Senate Energy and Natural Resources Committee, Chief of Staff 
for the Wyoming Governor Jim Geringer, Manager of U.S. 
Government Relations for GE Energy, President of our Nation's 
first cooperative conservation bank, co-founder of the Upper 
Green River Conservancy, where he built partnerships among 
diverse stakeholders to protect core sage grouse habitat in 
southwest Wyoming, served on numerous other organizations and 
boards dedicated to conserving wildlife.
    Assistant Secretary Wallace, it is a privilege to welcome 
you back as a witness before the Environment and Public Works 
Committee today. Thank you for being with us. I want to remind 
you that your full written testimony will be made part of the 
official record here today, so please try to keep your comments 
to 5 minutes, so we may have more time to argue among things 
among ourselves.
    Please proceed with your testimony.

STATEMENT OF HON. ROBERT WALLACE, ASSISTANT SECRETARY FOR FISH, 
        WILDLIFE, AND PARKS, DEPARTMENT OF THE INTERIOR

    Mr. Wallace. Good morning, Chairman Barrasso, Ranking 
Member Carper, and members of the Committee. Thank you for the 
opportunity to discuss the mission and work and priorities of 
the U.S. Fish and Wildlife Service.
    The Service is the only agency of the Federal Government 
whose primary mission is fish and wildlife conservation. The 
Service's conservation mission is carried out by over 8,000 
employees stationed at hundreds of wildlife refuges, fish 
hatcheries, and field stations and regional offices spread 
across all 50 States and all 5 U.S. territories.
    I have been fortunate to travel around the country to meet 
with some of the Service's dedicated professionals. I have been 
impressed with the good work they are doing on the ground to 
conserve fish and wildlife for the American public. Their work, 
carrying out the laws that you, Congress, pass ensures that 
America's wildlife heritage will pass on to future generations.
    I will focus my remarks on a few of the priorities that are 
being led by Secretary Bernhardt and supported by his team at 
Interior. One of the Secretary's priorities is to be a good 
neighbor. The Service understands that the conservation of our 
Nation's fish and wildlife is not something that it can achieve 
alone. Strong partnerships with State and Federal agencies, 
tribes, private landowners, and other stakeholders are 
essential to successful conservation.
    Another area of focus for the Service is partnerships with 
landowners. This is especially important because 60 percent of 
the land in the United States is privately owned. The Service 
invests in keeping landowners on their land and preserving 
working landscapes for the benefit of agriculture, ranching, 
timber, and traditional land uses. We do that because fish, 
wildlife, and plants benefit from the investment in working 
landscapes.
    Ensuring public access to Federal lands is another high 
priority. In addition to its core conservation purpose, the 
National Wildlife Refuge System plays an essential role in 
providing outdoor recreation opportunities for the American 
public, with over 59 million visitors last year.
    Access to land of the refuge system also benefits local 
communities. We recognize this significant impact, and so, last 
year, the Service announced new hunting and fishing 
opportunities on more than 1.4 million acres nationwide.
    To further facilitate public access, the Service removed or 
revised 5,000 site specific hunting and fishing regulations to 
more closely align with State law. For example, one of my 
favorites, we eliminated the burdensome requirement that 
hunters must wear a vest or jacket containing back and front 
panels of at least 600 square inches of solid, fluorescent, 
orange color. Instead, we aligned our regulations with the 
State's less burdensome requirements for just wearing blaze 
orange while hunting.
    Other ways the Service is expanding access is by promoting 
wildlife conservation in hunting and fishing and outdoor 
recreation in our cities and getting new, non-traditional 
audiences to visit their local refuges. The Service has a new 
confirmed director, Aurelia Skipwith, who is a strong leader in 
this effort.
    There are more than a hundred such urban refuges that are 
great resources to connect people with nature. To further this 
effort, the Secretary designated September 29th as Urban 
National Wildlife Refuge Day.
    I will close by highlighting the Secretary's emphasis on 
recovery of species listed under the Endangered Species Act. 
The United States is a global leader in species protection and 
conservation. The Service is committed to the recovery of 
listed species and to returning management of those species to 
our State and tribal partners. This will allow the Service to 
focus our limited resources on those species of greatest 
conservation need.
    Already, in this Administration, the Service has issued 
final and proposed rules to the list or down list nearly 30 
species. For example, the Service recently proposed to delist 
the interior least tern, which migrates across 18 States in the 
central United States. The tern has come back from just 2,000 
individuals, thanks to years of cooperative work with Federal, 
State, local, and other partners. These efforts will help 
ensure that the continued success of the species, should it be 
returned to the State management.
    This is one of the many great success stories to show how 
ESA can work and the department as a committee to making the 
progress going forward. Improving implementation of the ESA 
continues to be a priority for the Secretary. We are committed 
to making the ESA as efficient and predictable as possible in 
accomplishing its purpose of conserving threatened and 
endangered species and protecting ecosystems upon which they 
depend.
    I appreciate the Committee's interest in further wildlife 
conservation. I would be happy to answer your questions, and 
thank you again for having me here.
    [The prepared statement of Mr. Wallace follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thanks so very much.
    We do have a number of Senators here, and some will come 
and go due to other requirements of their time.
    I wanted to start with a couple of questions on issues that 
we are facing, and one is the U.S. Fish and Wildlife Service 
determined that the grizzly bear in the Greater Yellowstone 
ecosystem has already met its recovery goals. The U.S. Fish and 
Wildlife Service said that in 1998, which was more than 20 
years ago.
    The Bush administration, the Obama administration, the 
Trump administration each has agreed, determined that the 
grizzly bear is recovered, and that the Endangered Species Act 
protections are no longer warranted. That is bipartisan 
agreement; now we are at over 20 years.
    The grizzly bear was delisted by the Service in 2007, only 
to be relisted by an activist judge in 2009. It was again 
delisted by the Service in 2017, only to be relisted again by 
another activist Federal judge in 2018.
    Do you agree that the grizzly bear is fully recovered and 
should be delisted?
    Mr. Wallace. Yes, Senator, we do. I think the Service 
believes that the grizzly bear is biologically recovered.
    Senator Barrasso. I guess the next step is where we go from 
here, but we don't have enough time in the questioning, so let 
me get to another question. But I appreciate the comment there, 
and we will visit it additionally.
    I wanted to get to that the Committee and the full Senate 
has passed America's Conservation Enhancement Act, the ACE Act, 
with unanimous support. The ACE Act would provide the U.S. Fish 
and Wildlife Service with additional tools to conserve 
wildlife. As mentioned in my opening statement, these include 
provisions to help the Service address challenges like chronic 
wasting disease, invasive species, wetlands conservation.
    Can you please speak about some of these challenges from 
the Service's perspective and what the agency is doing to help 
address them?
    Mr. Wallace. Senator, we have not taken a position on the 
ACE Act, but we are certainly aware of the leadership that you 
and Senator Carper and the Committee members have taken in 
trying to address some of the Nation's most complicated and 
challenging conservation issues, everything from the Genius 
Prize that you have focused on, Senator, to reauthorizing some 
very important partners in the Chesapeake and the National Fish 
and Wildlife Foundation.
    So I think on behalf of the Service, thank you for the 
leadership in that role, and we look forward to working with 
you going forward.
    Senator Barrasso. On Monday, February 3rd, the Washington 
Post published an article entitled ``Hunting Is Declining, 
Creating a Crisis for Conservation.'' ``Hunting Is Declining, 
Creating a Crisis for Conservation.'' The article describes how 
sportsmen play such a significant role across the country in 
funding the wildlife conservation efforts of States. They do it 
through the Pittman-Robertson Act.
    It notes that a decline in hunting is cutting into some of 
the funding for conservation.
    Last year, this Committee passed and got signed into law 
two bills to strengthen Pittman-Robertson, the Target Practice 
and Marksmanship Training Support Act, and then also the 
Modernizing the Pittman-Robertson Fund for Tomorrow's Needs 
Act.
    How will these legislative changes help State fish and 
wildlife agencies that rely on this Pittman-Robertson funding, 
and what is the status of this implementation?
    Mr. Wallace. We saw that same article, Senator, and it is 
something that the Service has talked about for quite a while. 
The decline in hunting and fishing on public lands, or hunting 
and fishing in general, has a direct impact on the ability of 
State fish and wildlife agencies to be funded every year. So it 
is an area that we are paying close attention to.
    The Urban Refuge Program that we are starting is a good 
first step. I had the privilege of being at the Blackwater 
National Wildlife Refuge in Eastern Maryland in the fall, where 
there is a Freedom Hunters Program going on that gets people 
from the inner city area around Baltimore and Philadelphia to 
come to the refuges and learn not only about hunting, but 
cooking, and the culture of dressing animals.
    They even told me they are getting some vegetarian hunters 
down there. I looked at them, and I thought they were gaming 
the Assistant Secretary, but no, there is a number of people 
that donate the organic meat to their friends and use the 
hooves for making soap and the bones for wind chimes. It is an 
interesting group of people that are coming together on 
refuges.
    We are aware of it, and we are doing what we can, thanks to 
your help, to increase that.
    Senator Barrasso. You mentioned the Genius Prize, that is 
the Wildlife Innovation and Longevity Driver Act, the WILD Act, 
enacted into law in March 2019. It established Theodore 
Roosevelt Genius Prizes. These cash prizes are meant to 
stimulate technological innovation in several different 
categories for the benefit of wildlife.
    Can you tell us a little bit about how far along we are in 
implementing these prizes, and when we can reasonably expect 
the first prizes to be awarded?
    Mr. Wallace. We are now, at the Interior Department, 
looking at that Act and trying to understand how best to stand 
up the prizes. Do we have to, for example, have a Federal 
advisory committee for each of the prizes, or could we stand 
that up with our own internal advisory committee? We are 
working very diligently on that, but I don't have the exact 
answer to you yet, sir.
    Senator Barrasso. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Mr. Secretary, several of our colleagues and I sent a 
letter recently to Secretary Bernhardt, in November, actually, 
inquiring about the status of the Conservation Agreement for 
the Monarch Butterfly. Utilities and transportation departments 
from Delaware to Wyoming, or Delaware to Texas, or Delaware to 
Oklahoma, stand ready to undertake conservation measures that 
could preclude the Service from needing to list the monarch 
later this year. But this agreement must be finalized before 
they can act.
    The Fish and Wildlife Service has delayed--I am told--
delayed finalization of the agreement for more than 6 months. I 
understand that the Service wants to resolve concerns raised by 
farmers; that is understandable. However, the proponents of the 
agreement believe that stakeholders' needs have been 
accommodated, and there are no outstanding legal issues that 
should hinder the agreement's effectiveness.
    My question is a brief one. What precludes the Service from 
finalizing this agreement now and working with agricultural 
stakeholders separately to develop an additional agreement for 
their continued engagement?
    And I would just ask that you would work with us on this 
issue. Any comments, please.
    Mr. Wallace. Senator, I did see your letter, and I will 
commit to you to putting that on my list of things I will 
personally drive at the department.
    The good news here is this CCAA for monarch butterflies has 
created a lot of very positive interest from people that have 
an opportunity to participate in that CCAA. The number of 
people that have come in to express interest may be one of the 
reasons that it has slowed down a little bit.
    But please be assured that I am aware of your concern, and 
I will keep you and your team, your staff, appraised of it on a 
very routine basis.
    Senator Carper. Thank you so much. My second question, Mr. 
Secretary, deals with the duck stamp. During your confirmation 
process, I asked if you would ensure that any changes to the 
duck stamp are designed to increase participation in the 
program.
    In your response, you acknowledged the importance of the 
Duck Stamp Program and conserving migratory bird habitat and 
committed to studying the program. Since that time, the Fish 
and Wildlife Service unveiled a new rule that will require the 
duck stamp to reflect the theme ``celebrating our waterfowl 
hunting heritage.''
    However, sportsmen are not the only participants in the 
Duck Stamp Program, as you may know. In fact, the American 
Birding Association, which is headquartered, believe it or not, 
in Delaware, encourages birding enthusiasts to purchase duck 
stamps as well, and they do.
    Here is my question. How exactly does this proposed rule 
seek to increase sales and participation in the program? What 
was the impetus for the change, and what type of research did 
the Service conduct to study the potential impacts of this rule 
on duck stamp sales and user participation?
    Mr. Wallace. Senator, I will answer this in a broad 
question with a commitment to come back to you again with a 
more detailed explanation. We are looking at the same thing 
that Senator Barrasso mentioned earlier about the decline in 
sportsmen on public lands, and what that means to Pittman-
Robertson and Dingell-Johnson revenues.
    We looked at a way to try to increase that revenue through 
duck stamp sales by celebrating the hunting heritage. It was a 
focus on trying to get more people, open more lands to hunt and 
get more people into the refuges.
    That is the general emphasis on that. But the idea is that 
to keep your constituents buying duck stamps and hopefully 
expand into other groups that don't necessarily think about 
even ducks, but they care about wildland conservation to also 
participate because it goes directly into habitat conservation.
    Senator Carper. All right. I look forward to hearing from 
you further on this, please.
    Last, I was pleased that the fiscal year 2020 omnibus 
included a $2.9 million increase in funding for refuge system 
law enforcement over the 2019 enacted level. As you know, lack 
of a dedicated full-time law enforcement officer is a challenge 
at Delaware's refuges, particularly given the Trump 
administration's emphasis on expanding access within the refuge 
system. I know this is a concern at other refuges as well.
    My question is how well the Service determined which 
regions or refuges receive new law enforcement officers with 
this additional funding, and will you continue to work with us 
to ensure adequate law enforcement at Delaware's two refuges?
    Mr. Wallace. The Service has a priority system about how to 
identify most urgent law enforcement needs and trying to 
allocate funds for law enforcement in those refuges. I hope to 
be up in Delaware in the next couple of months to be able to 
sit down with the refuge managers up there, understand the 
needs of Prime Hook and Bombay Hook, and have a more detailed 
explanation about how that specifically affects the refuges you 
care most about. But they do, within limited resources, try to 
spread that money forward to where is most urgently needed.
    Senator Carper. All right. Thanks, we look forward to 
welcoming you to the First State.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Wallace, in Oklahoma, we have two of the endangered 
species where there is activity going on right now that is 
meaningful, not just for our developers and roads people, our 
farmers, it is very important to them.
    One is the American burying beetle, and we understand that 
now that they are, due to the resurgence of the beetle, that 
they are proposing a down listing of the species from 
endangered to threatened. That is my understanding, that is 
supposed to be some time around June of this coming year, this 
year.
    The second thing is the prairie chicken. We have had 
Oklahoma, Texas, Kansas, Colorado, and New Mexico very active 
in promoting and helping Fish and Wildlife out on this issue, 
and I think that we are in the position now where a decision is 
going to be made as to whether or not to list the prairie 
chicken.
    I would kind of like to have you respond to this question 
as to, where are we now on the burying beetle. I think we are 
in good shape on that.
    But is there anything else that we can do during the 
decision that is going to be made on the prairie chicken? We 
are now talking about five States trying to work cooperatively 
with you that might impact that decision.
    Mr. Wallace. Senator, as to your first question about the 
American burying beetle, we are working on down listing from 
endangered to threatened, with a tailored 4(D) rule, which 
provides more flexibilities in how to manage that to the 
States. We feel like we are working cooperatively with 
organizations that are impacted by that.
    Senator Inhofe. Do the dates still look good in terms of 
June 2020?
    Mr. Wallace. We are still on track, yes sir.
    Senator Inhofe. Good. Good. And then on the prairie 
chicken?
    Mr. Wallace. The prairie chicken, I believe, we are under 
consent decree for spring of 2021 to make a listing decision. I 
know there has been a lot of work with the Western Association 
of Fish and Wildlife Managers to stand up some conservation 
areas that may go toward providing some assurance about the 
long term health of the lesser prairie chicken.
    Senator Inhofe. And the other question was that, is there 
anything that we can do, our stakeholders, the five States that 
are involved in this, that would be of assistance in helping 
with this decision?
    Mr. Wallace. Oh, thank you, I am sorry, I misunderstood. 
Let me come back to you on that. When I talked to the Service 
in preparation for this hearing, I got the sense that things 
were working pretty well with the affected parties.
    Senator Inhofe. I think that is right. In my remaining 
time, I am concerned also about the Migratory Bird Treaty Act. 
The new interpretation of the rule inserts the word 
``unintentional,'' damage that is done unintentionally. I think 
about if you are doing a bridge project some place and by 
accident, something happens, that you would not find yourself 
in a situation where you are in a criminal situation.
    So I am concerned about that, and I just know that in our 
State, our State Highway 3 Bridge rehab project ended up taking 
a number of months longer than it would have otherwise, in 
order to comply with this. So I am concerned about that.
    Can you speak to the length of delays in projects that 
happened as a result of criminalizing the incidental take? Now 
hopefully, that is going to be changed. Any comments on the 
change of that rule?
    Mr. Wallace. As you are aware, Senator, there was a 
Solicitor's opinion shortly at the beginning of this 
Administration that said that incidental take under the 
Migratory Bird Treaty is not a prohibited activity, which goes 
to your concern about your constituents.
    There is a regulation that has been proposed, that was 
issued I think earlier this week. It is proposed regulation 
asking for 45 days of public comment on that proposed rule, but 
it basically puts into regulation what the Solicitor said back 
in December 2017.
    Senator Inhofe. Yes, I am hoping you support that rule.
    Thank you very much, Mr. Wallace.
    Senator Barrasso. Thank you very much, Senator Inhofe.
    We will now turn to Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, and thank you, 
Mr. Secretary. Thanks for being here and also for your remarks 
about the Chesapeake Bay and the ACE Act, the bipartisan bill 
that includes something called the Chesapeake Wild Act, which 
will strengthen the cooperation between the Fish and Wildlife 
Service and Chesapeake Bay Conservation Partners. So we are 
looking forward to passing that.
    The Blackwater Wildlife Refuge, you mentioned that. As you 
know, that is a very important habitat for migratory birds, 
right? Do you agree it is a very important habitat?
    Mr. Wallace. I do agree. I was just there.
    Senator Van Hollen. Now, Senator Inhofe raised this issue 
about the so called M opinion, the Solicitor's opinion, which 
actually predated your coming on board. Under your leadership, 
it has now migrated from a Solicitor's opinion to proposed 
regulation.
    Now, you remember that BP Deepwater Horizon disaster, 
right? Do we all remember that?
    Mr. Wallace. I do remember.
    Senator Van Hollen. Massive killing of birds.
    But isn't it a fact that the new interpretation of the 
Migratory Bird Treaty would now prevent us from getting the 
$100 million in damages against BP for the mass killing of 
migratory birds, moneys that went into the Wetland Conservation 
Fund? Isn't it a fact that the new interpretation would mean 
that we could not go after BP on violations to the Migratory 
Bird Treaty?
    Mr. Wallace. The total settlement, if I recall for the BP 
spill, is around $18 billion or $19 billion.
    Senator Van Hollen. Mr. Secretary, this is a very simple 
question. I am not asking whether you could have gotten damages 
under other laws. I am asking you, isn't it true that you would 
not be able to seek the $100 million damages under the 
Migratory Bird Treaty? Isn't that a fact?
    Mr. Wallace. Unintentional taking, that is correct.
    Senator Van Hollen. Even though it was a massive killing. 
We are not talking about one bird that got killed while 
building a bridge. Obviously, that is not the intent of the 
Migratory Bird Treaty.
    But it is to protect migratory birds, is it not? How does 
it further the mission of the Fish and Wildlife Service to take 
away the ability to fine a company like BP when its disasters 
kill masses of birds? How does that further the goal?
    Mr. Wallace. If you would indulge me for a couple of 
minutes to maybe understand our thinking about this issue, and 
hopefully assuage your concerns that we care deeply about the 
health of wildlife, too, and migratory birds.
    The Solicitor's opinion that was issued by the last 
Administration was issued on January 10th, 2017, exactly 7 
years, 11 months, and 20 days into that Administration.
    Here is what it said. It said that the incidental take 
prohibited under the Migratory Bird Treaty Act interpreted the 
MBA's prohibition and penalties as applying regardless of a 
violator's intention or state of mind.
    That creates a couple of concerns for those of us that have 
to allocate resources. First of all, under the Migratory Bird 
Treaty, there is no civil penalty. Like you have done with all 
the other environmental statutes you have passed here, Clean 
Water, Clean Air, Bald Eagle Protection----
    Senator Van Hollen. Mr. Secretary, I am sorry. Because of 
our limit, if the Chairman wants to give me additional time----
    Senator Barrasso. I would be happy to do that, if there is 
no objection, it would be fine. Then you would still have 3 
minutes remaining for your questioning as well.
    Senator Van Hollen. OK. That is fine. I appreciate that.
    Senator Carper. I object.
    [Laughter.]
    Mr. Wallace. It was a concern about that strict liability, 
that criminal statute is the only option of enforcement that 
that Act provides. You don't get a chance to have a written 
warning; you don't get a chance for a civilian fine. Your first 
indication you are in trouble under the Migratory Bird Act is a 
grand jury.
    So it was a tool that had--I understand what you are saying 
about the oil spilled in the Gulf, but it is a tool that is 
applied across the board. I saw you having other discussions 
about this. There are about a million birds unfortunately 
killed by wind turbines and oil ponds a year, about a million. 
That is too many. Two hundred-fifty to 350 by automobiles. Half 
a billion by plate glass windows.
    So all of those are potentially under the purview of that 
interpretation of that Act, so that is where we are.
    Senator Van Hollen. Mr. Secretary, look, I understand that 
nobody intends for that provision to apply to someone who 
unintentionally kills a couple birds, right? But the way you 
revised it means that in the case of massive killing of birds, 
unless it is intentional, and obviously BP didn't set out to 
kill millions of birds, but under your interpretation, you 
can't collect the $100 million against BP.
    Here is the problem that is having in the Chesapeake Bay 
region. I just want to read you an article, a New York Times 
article. It says, is the State of Virginia prepared for a major 
bridge and tunnel expansion in the tidewaters of the Chesapeake 
Bay last year. Engineers understood that the nesting grounds of 
25,000 gulls, black skimmers, royal terns, and other sea birds 
were about to be plowed under.
    So we are not talking about a few birds, we are talking 
about the nesting grounds for 25,000 birds. The State began to 
develop an artificial island as an alternative habitat because 
their understanding was, they had an obligation to do so under 
the Migratory Bird Treaty Act, but that is when the Trump 
administration stepped in.
    The Federal Government said it ``appreciates the State 
efforts, but that new rules in Washington have eliminated 
penalties for `incidental migratory bird deaths that came in 
the course of normal business.' '' So even though they were 
plowing under the nesting grounds for 25,000 migratory birds, 
because obviously that wasn't their purpose, they didn't have 
to come up with an alternative habitat.
    So my question to you, as somebody who is responsible for 
protecting migratory birds and habitat, how does that opinion 
further your mission?
    Mr. Wallace. Keep in mind, Senator, that there are a number 
of environmental laws that are still going to apply to 
migratory birds, and we are committed to that.
    Senator Van Hollen. If you could just, Mr. Secretary, does 
the State of Virginia have any obligation under those other 
laws to build an alternative habitat?
    Mr. Wallace. The permitting process, whether it is under 
NEPA or any other State organization, should, if the people are 
doing their job, incorporate best practices. Best practices do 
not go out the window because of the Migratory Bird Treaty. 
There is still going to be very much applicable to any ELM 
permit.
    Senator Van Hollen. Mr. Secretary, I know you inherited 
this. I know the opinion predated your service. I understand 
that, but you are now in the process of turning that M opinion 
into regulations, and I think you are going to get a lot of 
pushback on those. I certainly hope so.
    I think that there is a way to address the issue you raised 
about not wanting to have people face criminal penalties for 
killing a few birds in the course of their business compared to 
plowing under the nesting grounds of 25,000 birds or what 
happened in BP.
    I would just like to ask you a question on another issue, 
and if you need more time to answer, you can get back to me in 
writing.
    The Fish and Wildlife Service has programs to protect 
international iconic species, like elephants and gorillas, 
including programs in Central America. Last year, there were 
some very serious problems with some of the contracting 
partners with the Fish and Wildlife Service. I understand why 
the Fish and Wildlife Service put that on hold back in 
September of last year in order to try to get rid of the bad 
actors.
    My question to you is, have you made progress getting rid 
of the bad actors? It is been many months now. Do you intend 
now to allow that funding to go forward for those important 
programs to protect these species?
    Mr. Wallace. I had the privilege, Senator, right after I 
was confirmed, to lead the U.S. delegation to CITES in Geneva, 
where I got to see first hand the incredible respect that the 
men and women of the Fish and Wildlife Service are held in that 
international community that is trying to stop that wildlife 
trafficking. So these programs are a very important part of 
that.
    The issues you refer to about human rights abuses, about 
potential sub-grantees of that money is something the 
Department Secretary takes very seriously. We are implementing 
auditing programs with the hope of getting those programs back 
and fully functioning. But if I could come back and see you and 
brief you in some more detail?
    Senator Van Hollen. I would appreciate that, because I 
think it is important to get those programs up and running. Get 
rid of the bad actors, of course, but to get them up and 
running again. So thank you. I appreciate that.
    Mr. Wallace. Just a parish note, I had the privilege of 
being with the Blackwater Refuge just a couple of months ago. 
What a terrific resource that is. Combined with the Harriet 
Tubman site, the sum is more than the parts.
    Senator Van Hollen. And thank you for your focus on that 
and visiting it, and for the great work in the Fish and 
Wildlife Service.
    Mr. Wallace. They are great people. Thank you, sir.
    Senator Van Hollen. Thank you.
    Senator Barrasso. Before turning to Senator Cramer, I point 
out that the Department of Interior's proposed rule with regard 
to the Migratory Bird Treaty Act is going to provide regulatory 
certainty about the scope of that Act. This proposed rule is 
based on a legal opinion issued by the Solicitor's Office, the 
Department Solicitor's Office.
    In December 2017, the Solicitor reviewed the Migratory 
Birds Treaty Act's texts, history, purpose, and concluded that 
the Act take prohibitions apply only to the conduct of 
intentionally injured birds.
    I know, Assistant Secretary Wallace, you are bound by that 
conclusion.
    The Department, I think, was correct in codifying it. I am 
asking unanimous consent that at least the Solicitor's opinion 
be admitted to the record, without objection, it will be.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    I was going to resist the temptation for this North Dakotan 
to get into the Migratory Bird Treaty Act proposed rule, but I 
am going to, to this degree, to simply tell you I applaud the 
decision. I really don't think you had a lot of choice on this, 
because it is not just a matter of one Solicitor's opinion 
versus the next Solicitor's opinion, and the back and forth. 
That is part of the problem in our regulation.
    But there are also mixed rulings in court, district courts. 
In North Dakota, we didn't have a BP spill, but we did have 
three oil companies that were zealously prosecuted by the U.S. 
Attorney's Office over 28 birds that flew into a pit some 
place, in various pits over the course of months, and died.
    Clearly that wasn't intentional; clearly it was a lawful 
commercial activity, and it was more of a representation of the 
hatred for the industry than it was the love of birds, the way 
that the U.S. Attorney's Office at the time went after these 
companies, and consequently, the workers.
    Fortunately, there was one willing to stand up to them, and 
it was thrown out, for all the reasons that this new rule, this 
proposed rule, States--and I have great sympathy for what 
Senator Van Hollen is talking about, but there has got to be a 
better way than simply punitive zealous prosecution of lawful 
commercial activity, regardless of the magnitude of it. 
Hopefully we can find a balance in all of this, find a balance 
that is not so punitive, but rather cooperative and 
collaborative.
    And so with that, with my remaining minutes, I want to 
spend this time to flesh out a little bit your views on the 
waterfall production area easements that you have been active 
in, and start off by saying, first of all, thank you again to 
Secretary Bernhardt for first of all coming to Hope, North 
Dakota, last year touring on a very chilly day, some wetlands, 
and then coming up with the recent director's order just 
earlier this, or I guess, last month that really demonstrates, 
again, once again, that the Trump administration cares about 
rural America.
    As you know, the enforcement of these pre-1976 WPAs has 
been confusing, and in many cases it has been a longstanding 
issue for landowners, oftentimes resulting in both unnecessary 
and far too often, again, zealous enforcement measures, 
excessive confrontation with law enforcement.
    More to the point, the Federal footprint in the WPAs only 
grows with time, even though there are very specific purchased 
acres in these pre-1976 easements that oftentimes this results 
in the de facto rule, what I call regulatory taking, or a land 
grab.
    According to the January 3rd director's order, throughout 
2020, the Fish and Wildlife Service will be sending updated 
modern maps--thank you very much--to landowners who have these 
pre-1976 easements. And they will be accompanied by the first 
ever appeals process--again, thank you very much--so that 
landowners can make sure that the maps are done properly.
    The most fundamental protection for a landowner is an 
accurate map, and clearly the technology in 1976 and previously 
doesn't match what we have today, and consequently, a lot of 
this confusion.
    To that end, I want to just ask a few fundamental process 
related questions so that the public knows what to expect. 
Because once the letters go out, and I expect they are going to 
go out soon, landowners will only have a short time to respond 
to them to sort of put the stake in the ground.
    So first of all, Mr. Chairman, what I would like to do is 
ask unanimous consent to submit the director's order and a 
recent op-ed that I wrote and was published this week in North 
Dakota newspapers.
    Senator Barrasso. Without objection.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cramer. So could you maybe just help me in the last 
minute, or help the people watching this, by describing the 
quality of the pre-1976 maps, and why this is even important at 
all, to provide some clarity to our landowners?
    Mr. Wallace. Could you ask that second--that last question, 
sir?
    Senator Cramer. Yes. Could you explain why it is important 
that we do this at all, and talk about the quality of the pre-
1976 maps versus today in light of this?
    Mr. Wallace. We have made, I hope that you will agree, good 
progress with your constituents on trying to provide some 
transparency. A lot of those wetlands protection areas that 
were signed up pre-1976 did not have complete maps.
    There was disagreement handed down from generation to 
generation about just what we had committed to do. I think we 
have 5,000 pre-1976 maps we have committed to get out to your 
constituents in the coming years, with 1,000 this year.
    We also have an appeals process that is going to help them 
have some peace of mind that they are going to get a fair 
hearing if they disagree with what the Service has said. I also 
think that we are looking at the way we approach your 
landowners in terms of trying to represent to them that there 
may be a disagreement about the wetlands protection area.
    So those three are, I think, already underway, and we are 
not looking at a tile setback regulations and appeals process 
for drainage tiles.
    Senator Cramer. To that, I would say amen, amen, amen, and 
amen to all, and thank you for doing that. That is a lot of 
amens, but it is a lot of good news.
    I think it gets to the point though, that all of us have 
been talking about, that the best way to do conservation is 
collaboratively, cooperatively, whether it is with sportsmen, 
landowners, oil companies, whatever the case might be, so let's 
amen.
    Thank you.
    Senator Barrasso. Senator Gillibrand.
    Senator Gillibrand. Mr. Wallace, now that the EPA has 
issued General Electric a certificate of completion for the 
Hudson River PCB cleanup, the focus on addressing the damage 
caused to the Hudson River is with the natural resource damage 
assessment that has been led by the Fish and Wildlife Service.
    My first set of questions relates to that process. What are 
the next steps and timeframe for moving forward with natural 
resource damage assessment? When do you expect that there will 
be additional opportunities for public input?
    Mr. Wallace. Senator, the trustees are working diligently 
to complete the injury determination phase of the assessment, 
having documented injuries in several natural resources thus 
far. So we share with our trustees the goal of successful 
recovery on the Hudson, and look forward to coming back to 
visit with you and update you on that progress.
    Senator Gillibrand. OK. When quantifying the injuries to 
the Hudson River, how does your agency consider the fact that 
far more contamination still remains in the Hudson River?
    Mr. Wallace. Again, I don't know, I will have to come back 
again and brief you and your staff in detail on that. Sorry.
    Senator Gillibrand. Thank you, sir.
    I would like to briefly mention another issue related to 
you, your role in overseeing the National Parks Service. The 
Jamaica Bay Marsh Islands, which are located in the Gateway 
National Recreation Area in New York, are in dire need of 
restoration.
    I have worked with the Army Corps to support including the 
restoration of the Marsh Island as part of the Hudson-Raritan 
Estuary ecosystem restoration project. The islands are 
critically important for migratory bird habitat, and their 
erosion harms the Jamaica Bay ecosystem as a whole.
    I hope that we can count on your commitment to work 
cooperatively with the Corps and with all the relevant 
stakeholders in New York to help move this project forward once 
it is been authorized.
    Mr. Wallace. We do, and again, I would like to come back 
and talk to you in detail about that.
    Marshland, wetland restoration resiliency strategies, I 
think, are imperative. It is not only in the Jamaica Bay, but 
it is in all of them, the refuge properties that we have to pay 
close attention to that. So we will be back and talk to you.
    Senator Gillibrand. Thank you.
    My next topic is the gray wolf delisting. The Fish and 
Wildlife Service commissioned an independent expert peer review 
of the Agency's proposed rule to delist gray wolves from the 
Endangered Species Act.
    Released last May, the peer review detailed shortcomings 
with both the proposal and its accompanying biological report. 
The independent reviewers found numerous factual errors and 
questioned the Service's interpretation of scientific 
information.
    The reviewers were not alone in their critique of the 
proposed rule; many other scientists and scholars have weighed 
in against removing protections for the gray wolves.
    How will the Service incorporate this study into its final 
rule? It is clear that in its current form the proposal to 
remove Endangered Species Act protections for the wolves is not 
in line with the best available science.
    Mr. Wallace. Senator, in regard to the amendments to ESA 
that were released, there are three major pieces to that. The 
first is trying to separate the distinction between an 
endangered species and a threatened species. Under previous 
interpretation, there was very little daylight between the two.
    In other words, if you had a threatened species, you still 
had very tight limitations on take, both the species and the 
habitat.
    So the most probably consequential piece of this is to have 
the ability to issue a tailored 4(D) rule for specific species. 
It may have specific habitat needs, and it may require taking 
some habitat to increase the species down the road.
    The other that has received a number of discussions has 
been the doctrine of the foreseeable future, what do you do 
with the foreseeable future standard. I can simply say that we 
are still committed to looking at climate change as a decision 
on listing. We have two stone fly listings, I believe one in 
Montana, one in Wyoming that had a climate change consideration 
to it. So climate change is still going to remain an important 
part of listing decisions.
    The third one is the economics associated with the listings 
decision. We are prohibited by law from using economics to make 
a listing decision.
    Senator Gillibrand. Great.
    Mr. Wallace. But we are not prohibited from being 
transparent in telling the public what the cost could be, but 
they are separated in the decisions.
    Senator Gillibrand. That makes sense. My last question is 
about migratory bird projection. One of Fish and Wildlife 
Service's key mandates is to conserve America's migratory bird 
species. Although the National Audubon Society recently 
published a report that found that two-thirds of North American 
birds are at increased risk of extinction due to climate 
change, the Service appears to be focusing its efforts on 
developing policies that undermine protections for birds.
    Would you please explain what the Service is doing to 
improve protections for migratory birds, and address the 
existential threat they face due to the impacts of climate 
change? What action is the Service taking to address the 
current and anticipated climate change impacts on the migratory 
bird habitat?
    Mr. Wallace. Well, a very general answer to that is we have 
best practices working groups that are committed to working all 
sorts of industries, whether it is oil and gas industry, the 
wind energy industry, on developing best practices to give to 
them to operate and minimize the amount of take on migratory 
birds.
    We are very committed to bird health populations, and 
regardless of the controversy around this last decision, we are 
not going away anywhere when it comes to a strong commitment to 
wildlife and migratory birds.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Senator Braun.
    Senator Braun. Thank you, Chairman Barrasso.
    General observation, because I remember back 35, 40 years 
ago where in southern Indiana, there were no beavers. The deer 
population was very low, I think turkeys had to be re-
introduced. We are also a State that at one time had 20 million 
acres, 19 million acres were wooded. That got cut down to just 
a million acres.
    So what Fish and Wildlife does, I think, is so important. I 
think you always err on the side of anything that is endangered 
or threatened, giving it the benefit of the doubt.
    I am a conservationist from way back. I think it is 
important and including bringing climate into the discussion. I 
was proud to be the first Republican to join the Climate 
Caucus, and six others have since joined, so it is a big, I 
think, general area of discussion.
    Pivoting now to, beavers are everywhere. Otters have been 
re-introduced very successfully. Bobcats; I am a hunter and an 
outdoorsman.
    I have a question in terms of the cross-jurisdiction 
between U.S. Fish and Wildlife and the reflective State 
agencies. Specifically, if you know anything about the bobcat 
population, because that is currently an issue throughout all 
of southern Indiana, where we have got some cases more of them 
showing up on trail cams than we do the prey that most folks 
pay a hunting license fee for.
    So when it does ebb and flow, and you get into a situation 
like we are dealing with, with bobcats, where is the U.S. Fish 
and Wildlife Act on that particular kind of issue? How do you 
work with your corresponding State agencies, that, you know, 
probably have the same point of view in mind?
    Mr. Wallace. I think it may be a broader answer to your 
question, but we are committed to working with--it goes to 
Secretary Bernhardt's commitment to work with State game 
agencies to manage wildlife and be of support in whatever way 
we can to do that.
    We have lots of success stories around the country now 
about recovering the wildlife species. Senator Barrasso's 
frustration, I know about, the grizzly bear. There are bears 
everywhere in Wyoming right now. They are back.
    Senator Braun. Bobcats as well, in southern Indiana.
    Mr. Wallace. Maybe to be more specific, if I could come 
back to your office with a more detailed explanation about 
that.
    Senator Braun. That would be great; please do that.
    Generally, would you give most of that latitude to the 
State agency in terms of what they would do, and you are just 
kind of a source of information? I would like to know, because 
currently, that is a big issue there.
    We have come back to where we have reforested, we have a 
much broader array of fish and wildlife, compared to what it 
was just 40 years ago, and that is so good; that is great.
    But occasionally, you do run into issues where you at least 
need to discuss when it has maybe come back too far the other 
way, so that is something, if you could--I would love to know 
more about how U.S. Fish and Wildlife weighs in vis-a-vis, 
especially, the Indiana Department of Natural Resources.
    Mr. Wallace. We will come back in detail about that. But 
the default position is we want the States to be managing as 
much wildlife as they can handle with our support.
    Senator Braun. Thank you.
    Senator Barrasso. Thank you, Senator Braun.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman, and thank you, Mr. 
Wallace for your service.
    I want to follow up on Senator Gillibrand's point in regard 
to our wildlife refuges. I am going to refer specifically to 
Blackwater, which of course is located in the great State of 
Maryland.
    First, Mr. Chairman, I am going to ask unanimous consent to 
submit the Blackwater 2100 Strategy for Salt Marsh Persistence 
in an Era of Climate Change.
    Senator Barrasso. Without objection, so ordered.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. And I do that because I have been to 
Blackwater many times, and I have seen first hand the erosion 
of the wetlands that is taking place as a result of sea level 
rises and climate change.
    This report spells out ``no-regret strategies firmly based 
on today's best science and predictable tools to ensure that 
future generations will enjoy the same benefits of the region's 
tidal marshes as we do today.''
    So I would like to get your response to what we could do at 
Blackwater. We have some novel ideas for looking at using 
dredged material to restore wetlands, and it works. It costs 
some money to do that, but that is one idea.
    But if we are going to preserve these tidal marshlands for 
the future, we are going to have to be very aggressive. This is 
a real treasure for wildlife and for our community.
    So are you committed to using best science and innovative 
approaches to deal with the challenges that have been brought 
out in this report?
    Mr. Wallace. Senator, I absolutely am, and I hope you are 
pleased to know that Blackwater has helped inform me on my 
opinion on this.
    I had the pleasure of going out there in October and 
spending a day with Marcia Pradines, who is the refuge manager 
out there. Also went over to the new Harriet Tubman Visitor's 
Center.
    Talk about a marvelous one-two combination where the 
visitor center that interprets her life, you can walk out the 
door, and thanks to the Blackwater Wildlife Refuge, get an 
understanding of what it must have looked like back there in 
the 1800s. It is a great resource for your State, and you 
should be very proud of it.
    They also, we talked about invasive species down there. 
They have a pretty good handle on nutria, I understand, they 
don't have a handle on snakeheads.
    But they also have a machine that Marcia showed me where 
they are digging up from the Blackwater River, trying to build 
up some of the refuge area to preclude that creeping saltwater 
from getting into some of those hard pines, thinking if they 
can build up the base, it is almost like a mini-dike.
    So you are doing some creative things down there that the 
entire Service can learn from, so you have my commitment, 
absolutely.
    Senator Cardin. Well, I really appreciate that answer, and 
thanks for giving the plug for the Harriet Tubman National Park 
and Visitor Center. It is relatively new. It is one of the new 
additions to the National Park Service, and it has been very, 
very popular as an educational tool in regard to Harriet 
Tubman.
    Thank you for mentioning that, because that is all part of 
the area where she was a slave and later helped conduct the 
Underground Railroad, all part of this pristine area of the 
Eastern Shore of Maryland that we are trying to preserve.
    Let me ask one more question. I want to follow up on a 
point that Senator Van Hollen raised in regard to migratory 
birds.
    I appreciate what you just said a little bit earlier in 
response to Senator Gillibrand, as to working with the 
utilities in order to mitigate the loss of migratory birds.
    But I am concerned--I want this to go on record--that 
changing the Migratory Bird Treaty Act by the opinion on 
intentional taking, it does open the door for irresponsible 
corporate action. I just hope that you will be vigilant in this 
regard and recognize that you don't want to give a legal 
footing to irresponsible corporate action as it relates to 
migratory birds.
    Mr. Wallace. I totally agree with you. I think we need to 
be in the forefront of it as leaders on best practices to 
inform industries about how we believe they can be responsible 
on public and private lands, and we are all in on that 
commitment, sir.
    Senator Cardin. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Barrasso. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman, and Secretary 
Wallace, welcome.
    I am going to begin by just mentioning, I am going to 
submit a number of questions for the record on polar bears and 
sea otters in my State. A lot of questions for you and your 
team.
    I am going to start, it is kind of a broken record for me 
in this Committee that my State, my officials, my people, my 
constituents, the native people of Alaska, have so much 
knowledge about protecting our species, protecting our 
environment, building our economy. These are challenging 
issues, but my State is really, really good at it.
    You have been to Alaska, right?
    Mr. Wallace. Many times.
    Senator Sullivan. Pristine, beautiful, one of the most 
beautiful environmentally protected, gorgeous places on the 
planet.
    Mr. Wallace. Right up there with Wyoming, sir.
    [Laughter.]
    Senator Sullivan. No comment.
    [Laughter.]
    Senator Sullivan. But then you travel up the East Coast 
corridor on a train, and you see a chemical environmental 
wasteland. And yet, many of my colleagues, and I am going to be 
a little partisan here, because it is always coming from the 
Democrats, seem to always want to tell me and my State how to 
manage Alaska's environment. And then you take the train, and 
you are like, holy crap. You are telling me how to manage my 
environment? Look at this environmental wasteland.
    So we have it again, just recently 16 of my colleagues sent 
a letter, several letters to the top 15 heads of the biggest 
banks in America, essentially saying, don't invest in Alaska's 
North Slope. They lose a vote on opening ANWR, and now they are 
pressuring the banks not to invest in my State.
    Unprecedented. I have been here 5 years. Over one-third of 
the Democrats in this Senate sent a letter to some of the top 
bankers in America to further impoverish my constituents. 
Unprecedented.
    A lot of times in this Committee, I get steamed, because 
when I see Senators from Oregon or whatever, Massachusetts, 
telling me how to run my State, it just makes me a little mad. 
I don't go to Delaware or Oregon and say, hey, do this or do 
that. But it always seems to happen here.
    I am beyond steamed on this one, I am just disappointed. It 
is sad. It is sad. One-third of the Senate Democrats are 
telling the biggest banks in America, don't invest in this part 
of Alaska.
    So I am going to send a letter to all these Senators, just 
expressing my sadness, in attaching, and I would like to submit 
it for the record, Mr. Chairman, a recent op-ed in the Wall 
Street Journal from the Mayor of the North Slope Borough.
    Senator Barrasso. Without objection.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Sullivan. He is an Inupiat leader, Native leader 
who has been in this part of Alaska for generations. It is 
entitled ``Goldman Sachs to Alaska Natives: Drop Dead.''
    It is all about how these ideas from my Senators are 
impoverishing some of the poorest people in America, and they 
don't care, because I guarantee the letter that was written by 
the 16 Senators was from extreme environmental group that they 
are probably going to do a lot of fundraising off of, but it is 
sad.
    I mention that, Mr. Secretary, because right now, you are 
developing an incidental take authorization for 2021 through 
2026. I have had concerns about some of the issues that have 
been raised here, and what is happening is it looks like the 
model you are using, particularly as it relates to the polar 
bear, has not been validated by peer review. It is reportedly 
based on a few recent papers that have not been peer reviewed.
    What I want to get a commitment from you on is that--your 
commitment is very important to me that--this is going to be a 
huge impact on my State and the economy and my constituents. It 
is essential that my constituents have a voice in this process 
because by the way, they are some of the most knowledgeable 
people on the planet, more than your people, no offense. 
Especially more than this recent paper that has not been peer 
reviewed.
    Can you commit to me that you will include State and local 
stakeholders, including some of the people I just talked about, 
not only making the final decision on the incidental take, but 
on participating in the incidental take application for seismic 
work in the Arctic National Wildlife Refuge right now? None of 
them have even been invited to be at the table. It is 
remarkable, and it is really upsetting.
    So can I get that firm commitment from you right now? I am 
going to have a whole bunch of other issues, similarly on the 
sea otter in southeast Alaska. You need additional data, we 
understand that, but we need to move on that, too.
    This is really frustrating to me, but it really hurts the 
people I represent. With all due respect to my Senate 
colleagues here, I know a hell of a lot more about representing 
Alaska than they do, and in some ways, the people under your 
command.
    So can I get that commitment from you, Mr. Secretary, and 
perhaps you would like to talk about this?
    Mr. Wallace. I do have a comment, Senator.
    Senator Sullivan. First, I need the commitment that you are 
going to include my experts, my knowledge. Right now my State 
is telling me they are not involved.
    Mr. Wallace. We have a commitment for total and transparent 
system on how we evaluate the ITR.
    Senator Sullivan. You did not answer my question.
    Mr. Wallace. Ask it again, please.
    Senator Sullivan. I need a commitment from you that the 
State of Alaska, with all its expertise and indigenous 
knowledge on issues like polar bears will be at the table, not 
only on the ITR for '21 through '26, but the seismic program 
that is being looked at now, which, I am being told by State of 
Alaska officials, they are not being included. And I need a 
commitment also on peer review of this paper.
    Point Thomson was just developed in Alaska. I oversaw that. 
That is right next to ANWR. The impacts on polar bear denning 
was almost minimal or zero. These are experiences that you need 
to take into account, and right now your people are not doing 
that.
    I need a commitment that you are going to work closely with 
Alaskan experts on all of this. I just need a yes.
    Mr. Wallace. You have that commitment, yes. And with 
another footnote, I met with your commissioner yesterday in my 
office, and told her the same thing.
    Senator Sullivan. Thank you. And I will have many, many 
more questions for the record.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sullivan.
    Senator Merkley.
    Senator Merkley. Thank you very much. Good to have you 
here.
    My colleague has identified a major debate here in the 
United States, and the Senate is a place we should debate these 
issues. He has raised a question, why is it that folks outside 
Alaska have concern about oil production, which can certainly 
be an economic activity that creates jobs, creates prosperity 
for a local community?
    I would invite you to come and tour Oregon with me, to my 
colleague, because we are seeing the impacts in rural Oregon. 
These are very Republican counties very concerned about 
dramatic transformations that they are witnessing from the 
increasing carbon levels in the air. Our Cascade snowpack is 
melting earlier, which means that our irrigation water for our 
farmers is deeply compromised. It has a huge impact on our 
ranchers, as well.
    The richer carbon dioxide is promoting, it is a beneficial 
fertilizer, if you will, for an invasive grass that is damaging 
the grasses important for ranching. We are seeing our lakes 
impacted by algae, toxic algae. Not only is it toxic, but when 
it dies, it strips the oxygen out of the lake. So it is having 
a big impact.
    We have smaller, warmer salmon and trout streams, which our 
rural fisherman care a great deal about.
    We have a forest fire season that is 2 months longer than 
it was, and it doesn't have to do with raking the forest, it 
has to do with how dry the forests are for how long.
    Our groundwater supplies for our farmers are dropping 
because we are getting less rainfall to re-enrich the 
groundwater, restore the groundwater. And off our coast, we 
have the most acidic water that human civilization has ever 
experienced in the Pacific Ocean, having a dramatic impact on 
the ecosystem off the coast from which our fisheries depend.
    So we do have a stake. Everyone one this planet has a stake 
in whether we produce and burn fossil fuels. So that is why we 
are all in this conversation, and this is the place to debate 
it and wrestle with it.
    Alaska is seeing even a bigger impact, proportionally, than 
is Oregon, the changing climate. That is something for us all, 
as Senators fighting for the best future for our Nation and for 
the planet, have to be engaged by.
    I am certainly struck, Mr. Wallace, that we have seen a 
change in the language. In your testimony, you talked about 
fish, wildlife, plants, and habitats face many stressors and 
threats across the Nation and around the globe, including 
habitat loss, invasive species, wildlife disease, wildlife 
trafficking, and a changing planet.
    What are you trying to encompass with ``a changing 
planet?''
    Mr. Wallace. Trying to accomplish what, Senator?
    Senator Merkley. What are you trying to address when you 
say a changing planet?
    Mr. Wallace. As you think of the authority of the Fish and 
Wildlife Service, National Parks Service in terms of the 
broader issue that you just discussed, the changes you are 
seeing in Oregon in lots of different areas, there are sort of 
three things that I think we can move the needle on, to be 
helpful on in that regard.
    One is healthy forest management. Years ago, when I started 
in this business, that was a pejorative, you talked about 
healthy forest management, it meant so many things to so many 
people.
    Now, it is communities from all over the country and to 
say, what do we do to minimize the possibility of a 
catastrophic wildfires in our lands?
    The second thing we see, and especially after the Hurricane 
Dorian came through on the East Coast, is beach re-nourishment 
strategies about whole areas on Cape Paterson, Point Lookout.
    The third is invasive species. If I had a preference, I 
would like to see invasive species mentioned in the national 
dialogue as much as any other comment.
    In those three areas, the Fish and Wildlife Service and the 
National Park Service can take a leadership role.
    Senator Merkley. I am struck how you talk about forest 
fires without mentioning the underlying causes, the greater 
storms and the impact those storms are having on our States 
without addressing the underlying issue, invasive species 
dramatically affected by the changing carbon in the atmosphere 
and the warming temperatures.
    Can we just have an honest discussion? Why is it that you 
have to dodge around the issue, and you are afraid to use the 
words carbon pollution, climate change? This is the most 
serious threat facing humanity.
    Don't you feel some responsibility as a public servant to 
actually get to the real issue and recommend and wrestle with 
real strategies to address this challenge?
    Mr. Wallace. I think those are real strategies. I think 
adoptive management and teaching a generation of people how to 
prepare for changes, as Senator Cardin just mentioned, in the 
Blackwater Refuge in Maryland. We see it on the coast of the 
Carolinas and Alaska. You want people that are caring for 
public resources to understand what is changing around them and 
have tools in place. That is where we, at my position at 
Interior, can help.
    Senator Merkley. Well, I will wrap up and just say I 
disagree that addressing the impact from these changes, which 
are devastating and saying, let's restore some beach sand, and 
we will all be happy, and not address the underlying cause is, 
it is pretty much addressing the issue after the horses are out 
of the barn, and we need to get the horses back in the barn.
    Senator Barrasso. Senator Carper.
    Senator Carper. Senator Merkley, before you arrived, in 
response to an earlier question, the words climate change came 
out of his mouth a number of times. Our colleague, Senator 
Braun over here, raised his hand and acknowledged he was the 
first Republican to join the Climate Change Caucus. Senator 
Barrasso tells me he has been joined by six other Republicans. 
I am urging him maybe to summon up his I don't know what, and 
join as well.
    So I think the interest in going at root causes is growing, 
and we need to grow it some more.
    Senator Merkley. Well, I will note those words did not 
appear in your testimony, and they don't appear in the most 
recent report. But I am heartened by your observation. Thank 
you.
    Senator Carper. Secretary Wallace, two questions if I 
could. Fish and Wildlife Service estimates that oil fuel waste 
pits kill between 500,000 and 1 million birds every year. That 
is bird mortality that is equivalent to practically one 
Deepwater Horizon spill every year.
    These pits, as you may know, are especially harmful for 
waterfowl. One Fish and Wildlife Service study found that 57 
percent, almost 60 percent of the birds killed at these sites 
are waterfowl.
    These bird deaths are problematic for many constituencies, 
including the hundreds of thousands of sportsmen and women who 
hunt waterfowl. The Migratory Bird Treaty Act has been the most 
important tool for cleaning up these pits, including throughout 
the George W. Bush administration.
    The Trump administration has essentially eliminated this 
tool through its unprecedented interpretation of this Act. Here 
is my question. How does this Administration reconcile its 
position on the Migratory Bird Treaty Act and cleaning up these 
sites with its position to expand opportunities for sportsmen?
    I will say that again. How does the Administration 
reconcile its position on the Migratory Bird Treaty Act with 
cleaning up these sites with its position to expand 
opportunities for sportsmen? Please.
    Mr. Wallace. Senator, regardless of this particular 
Migratory Bird Treaty issue that you asked me about, we have a 
large quiver of environmental statutes, thanks to your 
Committee and others, to enable us to protect and preserve 
species. The Clean Water Act, for example, the Bald and Golden 
Eagle Protection Act, Endangered Species Act, Oil Spill Act.
    In addition to that, we have working groups with all of 
these industry groups about best practices, about netting your 
pond, about flagging it, about putting louvers over heater 
treaters so a bird doesn't crawl into a warm vent and it is 
turned on. So we are not going away from this debate.
    We just could not criminalize such a broad activity of 
actions under the Migratory Bird Treaty and understand how to 
implement it. Who do you pick, and who do you choose from? We 
would invite, if you have ways of putting sidebars on that, we 
would look to the legislative branch to tell us how to enforce 
that treaty.
    Senator Carper. All right, thank you.
    One last question. Last year, news investigations raised 
several important questions about whether or not U.S. funding 
for international wildlife conservation supported activities 
that violated human rights; both the Fish and Wildlife Service 
and the implicated conservation organizations, should continue 
to take these issues very seriously and ensure that such abuses 
do not occur.
    However, I understand that the Department of Interior has 
frozen about $12 million for international wildlife 
conservation activities that are unrelated to human rights 
abuse allegations, unrelated to human rights abuse allegations. 
Congress appropriated this funding, I think for fiscal year 
2018, 2018.
    The question: when do you expect the Department of Interior 
to release these obligated funds? When do you expect your 
department to release these obligated funds, the $12.3 million 
that has been frozen?
    Mr. Wallace. Senator, we had an issue where they were held 
at the Department of Interior because of allegations that were 
coming forward about potential abuse to second and third 
generation grantees in range countries where we were trying to 
curtail wildlife. We don't want to be a part of any of that, if 
it were true.
    We have set up audits. We are working with the USAID on 
best practices from them. We know it is an important part of 
our diplomacy and wildlife trafficking, and it is an issue that 
I talk about with our team weekly.
    So I am going to put that on my list to come back and talk 
to you and the Committee about. But please be assured that it 
is not in some shoebox at the Department of Interior; it is a 
high priority.
    Senator Carper. All right, we will continue to focus on it 
with you, and thank you for joining us today.
    Thank you.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Chairman.
    Welcome back, Mr. Wallace. It is good to see you again.
    I have two topics with you today. One is that from the 
Department of Interior's very name, right down through its 
focus, what we coastal States see as an organization that is 
heavily focused on western, inland, and upland issues, and that 
pays very little attention to coastal concerns.
    I raised this with you during the confirmation hearing, and 
I would like to ask you to, perhaps in a response, a written 
response, take this as a question for the record if you would 
like, because I don't want to put you on the spot or just get a 
1 minute answer to a longer question.
    What are the ways that you have undertaken to make sure 
that your organization pays attention to coastal areas, and 
that we get fair treatment up against upland, inland, and 
western areas?
    I know that this will distress our Chairman from his 
upland, inland, and western State, but I do think it is fair 
that coastal States like mine and Senator Carper's are not left 
out of the Department of Interior's attention.
    The second question is much more local to us. We have had 
the chance to discuss this, you and I, offline, and that is the 
park that is being developed along the Blackstone River in 
Rhode Island and in Massachusetts.
    Unlike the West, where you can draw big squares on big 
chunks of territory and call them parks, we have been developed 
since the 17th century, in some places, and certainly since the 
18th century. So trying to carve out park areas is complicated.
    What we are able to do is in the Blackstone Park, treat the 
Blackstone River as sort of the bracelet, and attach to it a 
variety of charms of historic significance. Then we have the 
question of, how do you link it all up. By road, by the river 
itself, by bike paths, and all of that, and that requires a 
whole different and more complicated regime of looking for 
easements and put ins, and take outs, and all of that.
    I would like to invite you to come to Rhode Island at a 
convenient time, once we have a meeting set up for you, and sit 
down with Senator Reed and myself, and go through where we are 
on concluding that park and get your attention to getting this 
done for once and for all.
    Mr. Wallace. I would answer the second question first. Yes, 
absolutely, I look forward to coming up to Rhode Island to see 
you and learn more about Blackstone. I think we have talked 
about it. There may be some lessons learned with the Cuyahoga 
Project.
    Senator Whitehouse. Cuyahoga. Fortunately, the Blackstone 
never caught fire.
    Mr. Wallace. Yes. I look forward to coming to see you.
    As to your question, is the Interior going to get into the 
exterior of the country, I think we already are there. If you 
look at the coastal areas that we have under management either 
as refuges or parks in Florida, Cape Hatteras, Point Lookout, 
the Texas gulf coast, we are in the business of understanding 
these big changes that are happening.
    Dorian re-carved some of the North Carolina coast right 
now. What does that mean for us as an agency on how we look at 
beach restoration?
    So we are being challenged by today's times to understand 
those questions that you have asked me. We are in the business, 
and we are going to be in it even a bigger way in the future.
    Senator Whitehouse. When we drill down into your accounts, 
and into the Army Corps of Engineers' accounts, we very often 
see huge discrepancies in where funding ends up, with the vast 
majority, in some cases, 80 percent, 90 percent of funding and 
accounts going to inland and upland uses and not to coastal 
uses. So I will take you through those accounts, and we will 
see if we can get them to be balanced a little bit more fairly 
in favor of the coastal States that have so long been not the 
Department of Interior's focus.
    Thank you.
    Mr. Wallace. I look forward to that, Senator. Thank you, 
and it is nice to see you again.
    Senator Whitehouse. Nice to see you again.
    Senator Barrasso. I would point out to the Senator from the 
coastal State on the East Coast that we previously during this 
hearing today, had quite a bit of a discussion debate, and some 
division and disagreement among coastal States on the western 
part of our country, with the Senator from Oregon and the 
Senator from Alaska having somewhat diverging views on issues 
of resources and coastal activities.
    Senator Whitehouse. That is what happens when you have so 
little to fight over along the coast, whereas you all are just 
choking with Federal money to the extent that you have sage 
brush rebellions to drive it away.
    [Laughter.]
    Senator Barrasso. I did have a final question before we 
close down this hearing.
    There was a discussion earlier about migratory birds, and 
deaths related to those. Somewhere I was reading a list of the 
things that cause bird deaths. You mentioned a few, vehicles, 
plate glass windows, wind turbines, animals that can cause 
death.
    Is there a listing somewhere of a proportionality of those 
sorts of things? I mean, you mentioned some different numbers 
for different things, but I wasn't able to get them all down.
    Mr. Wallace. We do have a list at the Fish and Wildlife 
Service. The No. 1 issue, not surprisingly, is cats, about 2.4 
billion estimated. And it goes down into oil, it comes down. 
Cell towers, transmission towers, plate glass windows, even 
cars. There is a big list of things that happen in America that 
kill birds. We will get that to the Committee.
    Senator Barrasso. Thanks so much.
    If there are no further questions, and we had quite a 
turnout; I think we have had questions from 11 different 
Senators. Others were here and had to leave before having a 
chance to offer questions. But they may be able to write to you 
questions. So I would ask that we keep the hearing record open 
for another 2 weeks.
    I want to thank you for your time and your testimony. We 
look forward to seeing you back in the Committee and all your 
thoughtful comments. Thank you, Mr. Wallace.
    The hearing is adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 {all]
</pre></body></html>
